NO. 20-

IN THE

SUPREME COURT
OF THE UNITED STATES
EUGENE DAVIS,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondents
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Third Circuit

CERTIFICATE OF SERVICE
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
AND
PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
HEIDI R. FREESE, ESQ.
Federal Public Defender

FREDERICK W. ULRICH, ESQ.*
Assistant Federal Public Defender

QUIN M. SORENSON, ESQ.
Assistant Federal Public Defender

TAMMY L. TAYLOR, ESQ.
Staff Attorney

Middle District of Pennsylvania
100 Chestnut Street, Suite 306
Harrisburg, Pennsylvania 17101
(717) 782-2237
Counsel for Petitioner
November 19, 2020

*Counsel of Record

I, Frederick W. Ulrich, Esquire, a member of the Bar of this Court, hereby
certify that on this 19th of November, 2020, copies of the Motion for Leave to
Proceed in Forma Pauperis and the Petition for a Writ of Certiorari in the abovecaptioned case were hand delivered and/or mailed, first-class postage prepaid, to
the following:
JEFF WALL, ESQUIRE
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue
Washington, DC 20530

PATRICIA S. DODSZUWEIT, CLERK
United States Court of Appeals
for the Third Circuit
601 Market Street, Room 21400
Philadelphia, PA 19106

MELISSA A. SWAUGER, ESQUIRE
United States Attorney’s Office
228 Walnut Street, Room 220
Harrisburg, PA 17101
melissa.swauger@usdoj.gov
I further certify that I am a member of the Bar of this Court and that all
parties required to be served have been served.

Respectfully submitted,
/s/ Frederick W. Ulrich
FREDERICK W. ULRICH
Asst. Federal Public Defender
100 Chestnut Street, Suite 306
Harrisburg, PA 17101
(717) 782-2237
Attorney ID# PA44855
Counsel for Petitioner
Date: November 19, 2020

